March 30, 1999

MICHAEL S. COUGHLIN
DEPUTY POSTMASTER GENERAL

ANTHONY J. VEGLIANTE
VICE PRESIDENT, LABOR RELATIONS

YVONNE D. MAGUIRE
VICE PRESIDENT, HUMAN RESOURCES

JESSE DURAZO
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT:	 Allegations of Retaliation at the Garden Grove Post Office
          Audit Report Number LR-AR-99-006

This report presents the results of our review of allegations of retaliation against
a letter carrier by management at the Garden Grove Post Office (Project
Number 99-EA-011-LR-000). The report responds to a complaint received by
the Office of Inspector General concerning these allegations.

The audit disclosed that there was retaliation, and the evidence strongly
indicates it was based in significant part on the employee’s participation in an
Office of Inspector General investigation and on        demonstrating and
picketing at the Garden Grove Post Office and other Postal facilities.
Management disagreed with one recommendation and agreed with three
recommendations. Management's comments and our evaluation of these
comments are attached to the report.

We appreciated the cooperation and courtesies provided by your staff during
the audit. If you have any questions, please contact me, at (703) 248-2300.


//Signed//
Billy Sauls
Assistant Inspector General
  for Employee

Attachments
cc:
Allegations of Retaliation at the Garden Grove Post Office     LR-AR-99-006


                                Table of Contents 




 Part I

 Executive Summary                                                      1


 Part II

 Introduction
   Background                                                           3

   Objective, Scope, and Methodology                                    4


 Audit Results
   Denial of Light Duty                                                 5

   Employee Treated Differently From Other Injured Employees            7

   Denial of Advance Sick Leave                                        10 

   Delay of Office Workers’ Compensation Programs Claim                11 


 Appendix                                                              14 





                                            i
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office            LR-AR-99-006


                            EXECUTIVE SUMMARY
Introduction                This report addresses the results of an Office of Inspector
                            General (OIG) review of alleged retaliation against a letter
                            carrier because of       participation in a February 1998
                            OIG investigation at the Garden Grove Post Office, Garden
                            Grove (Santa Ana District), California.

                            The Inspector General Act of 1978, as amended, prohibits
                            retaliation against any employee for making a complaint or
                            disclosing information to the OIG. Also, the Deputy
                            Postmaster General, in a March 19, 1998, memorandum
                            stated that no retaliatory action is to be taken against a
                            postal employee for alleging wrongdoing to the OIG.

                            The review disclosed that there was retaliation, and the
                            evidence strongly indicates it was based in significant part
                            on the employee’s participation in an OIG investigation, and
                            on         demonstrating and picketing at the Garden Grove
                            Post Office and other Postal facilities.                 were
                            aware of the employee's complaints against management.
                            Specifically, management denied the employee’s requests
                            of light duty and advance sick leave, and also delayed
                            injury claim with the Office of Workers’ Compensation
                            Programs. We were unable to determine any credible
                            reasons, other than retaliation, for management’s denial of
                            the request for light duty and the delay of the injury claim.
                            Management had no explanation for the delay of the injury
                            claim.

Recommendations             1. The Vice President, Pacific Area Office, should review
                               the actions of the Garden Grove         to determine
                               whether corrective and/or disciplinary action is warranted
                               for this inconsistent treatment.

                            2. The Vice President, Pacific Area office, and the Vice
                               President, Human Resources, should ensure that
                               Garden Grove                 implement procedures to
                               comply with the Employee and Labor Relations Manual,
                               Section 355.14, and the National Association of Letter
                               Carriers national agreement, Article 13, Sections 2.A
                               and 4.A, in approving or denying light duty assignments.




                                            1
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office           LR-AR-99-006


                            3. The Vice President, Pacific Area office, and the Vice
                               President, Human Resources, should reiterate to all
                               management that retaliation against employees is
                               prohibited.

                            4. The Vice President, Pacific Area office, and the Vice
                               President, Human Resources, should take action to
                               ensure that all Office of Workers' Compensation
                               Programs injury compensation claims are timely
                               processed in accordance with Form CA-2 instructions.

Summary of                  Management disagreed with Recommendation 1 and
Management                  agreed with Recommendations 2, 3 and 4. We summarized
Response                    these responses in the report and included the full text of
                            the comments in the Appendix.

Evaluation of               We do not agree with management’s comments on
Management                  Recommendation 1. Our finding of retaliation against the
Response                    employee is supported by credible evidence. However, we
                            have agreed to make several changes to the report based
                            on management's comments. These changes are detailed
                            in the body of the report.




                                            2
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office              LR-AR-99-006


                                 INTRODUCTION
Background                  Citing work-related injuries, a letter carrier at the Garden
                            Grove Post Office filed an Office of Workers’ Compensation
                            Programs injury claim in April 1998. In connection with the
                            injury, the employee requested light duty work and advance
                            sick leave. The Garden Grove                       denied these
                            two requests on May 20 and May 21, respectively. When
                            the requests were denied, the employee filed grievances
                            against postal management. The employee stated to
                            management and to the OIG in May 1998 that
                            requests were denied in retaliation for          participation in
                            an OIG investigation at the Garden Grove Post Office during
                            February 1998.

                            In July 1998, OIG requested that the United States Postal
                            Service (USPS) Headquarters           , Safety and Workplace
                            Assistance, conduct an independent investigation into the
                            employee’s allegations. The          appointed a Human
                            Resources         from another district to conduct the
                            investigation. On August 10, 1998, the Human Resources
                                   submitted a report to the       , Safety and Workplace
                            Assistance. The report consisted of “findings of fact” and
                            supporting documentation, but it contained no conclusions
                            or recommendations. Based on this report, the
                            Headquarters          concluded, in an August 18, 1998, letter
                            to the OIG, that        at the Garden Grove Post Office and
                            at the Santa Ana performance cluster did not retaliate
                            against the employee for participating in the OIG
                            investigative process. The         provided a copy of the
                            investigative report to OIG.

                            OIG reviewed the report with supporting documentation and
                            determined that certain information was missing. The report
                            contained no discussion of retaliation and no evidence of
                            interviews with other employees who were given light duty
                            work. To ensure that we had received the entire report, we
                            contacted the Human Resources            on October 1, 1998.
                                   told us that      had not been tasked to determine
                            whether Garden Grove          had retaliated against the
                            employee.           said     was asked to review two
                            issues: (1) was the employee’s light duty request improperly
                            denied, and (2) was the employee’s Office of Workers’
                            Compensation Programs claim properly handled.




                                            3
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office                     LR-AR-99-006


                              As a result of this conversation, OIG visited the Garden
                              Grove Post Office in October 1998 to determine whether
                                             had retaliated.

Objective, Scope and          We reviewed grievance, Equal Employment Opportunity,
Methodology                   and Office of Workers’ Compensation Programs records,
                              Official Personnel Files, and unofficial personnel records,
                              including medical documentation, maintained at the Garden
                              Grove Post Office. We also reviewed applicable sections of
                              the USPS rules and regulations, a March 19, 1998,
                              memorandum on retaliation from the Deputy Postmaster
                              General, and the National Association of Letter Carriers
                              national agreement. In addition, we reviewed Section 7 (c)
                              of the Inspector General Act of 1978, as amended (5 U.S.C.
                              app. 3).

                              We interviewed and obtained statements from the employee
                              alleging retaliation and eight other employees, including the
                              local stewards of the National Association of Letter Carriers
                              and American Postal Workers Union, the                   , and
                                               at the Garden Grove Post Office.1 At the
                              district level, we spoke to the Santa Ana               , the
                                              , and the              involved in the
                              employee’s injury compensation claim.

                              Our review was conducted between September 1998 and
                              January 1999 in accordance with generally accepted
                              government auditing standards.




1
 We limited the number of interviews to seven craft employees who were identified in the USPS
investigative case file                We also interviewed an additional craft employee,
                 .




                                              4
                                   Restricted Information
Allegations of Retaliation at the Garden Grove Post Office              LR-AR-99-006


                                 AUDIT RESULTS
Denial of Light Duty        Section 355.14 of the USPS Employee and Labor Relations
                            Manual requires that “installation heads show the greatest
                            consideration for full-time regular…employees requiring light
                            duty or other assignments, giving each request careful
                            attention, and reassign such employees to the extent
                            possible in the employee’s office.” Section 341.1 of USPS
                            Personnel Operations, Handbook EL-311, states: “If such
                            assignments are made, they must be in accordance with
                            any applicable collective-bargaining agreement.”

                            Article 13, Section 2.A of the National Association of Letter
                            Carriers national agreement states: “Any full time regular
                            employee recuperating from a serious illness or injury and
                            temporarily unable to perform the assigned duties may
                            voluntarily submit a written request to the installation head
                            for temporary assignment to a light duty or other
                            assignment.” Section 4.A states: “Every effort shall be
                            made to reassign the concerned employee within the
                            employee’s present craft or occupational group, even if such
                            assignment reduces the number of hours of work for the
                            supplemental work force. After all efforts are exhausted in
                            this area, consideration will be given to reassignment to
                            another craft or occupational group within the same
                            installation.”

                            The OIG review disclosed that the Garden Grove
                                           and the                 gave little consideration
                            in providing the employee with light duty work. This lack of
                            effort supports our conclusion that Garden Grove
                                           retaliated against the employee.
                                           were aware of USPS policy prohibiting
                            retaliation.

                            The circumstances detailed below, as well as statements by
                            Garden Grove         , provided no credible reasons for the
                            denial of the employee’s requests for light duty.       were
                            aware of the employee's complaints. One admitted
                            knowledge of the employee’s participation in the OIG
                            investigation, and another was aware of
                            demonstrating at Postal facilities.

                            After filing the injury claim in mid-April,            .
                            Before exhausting                 , the employee requested



                                            5
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office                LR-AR-99-006


                                  . The employee’s doctor provided documentation
                            stating that the employee could case (i.e. sort)           mail
                            and perform other light duty. However,
                            interpreted the employee’s medical restrictions so narrowly
                            as to preclude        from casing           mail so that a
                            substitute carrier could deliver it in a timely manner.
                            interpretation was that the medical documentation limited
                            the employee to casing for only one hour per day. In fact,
                            the medical documentation clearly showed that the
                            employee could perform            casing duties as long as
                                   took a five-minute break each hour.

                            In addition, we learned that the                 , Santa Ana
                            District, supported the decision of the                 not to
                            allow the employee to return to work. Specifically,
                            advised OIG and the USPS                      in May 1998 that
                            there was no work for the employee at Garden Grove due to
                                   medical restrictions. In May 1998, at OIG’s request,
                            the                 inquired into the employee’s allegation of
                            retaliation and reported to both the employee and to OIG
                            that        found no retaliation. The                 told OIG
                            in October 1998, that          treated the employee’s claim as
                            an off-the-job injury and that        did not want to aggravate
                            the employee’s injury.

                            Garden Grove                    disregarded the advice of two
                            other District officials, the Santa Ana                 , who
                            stated that                  should (1) treat the employee’s
                            claim as an on-the-job injury and (2) provide            light duty
                            work within          medical restrictions. Instead,
                                            did not provide the employee with light duty
                            work from the period May 21 to June 27. Specifically, the
                                            told the                 that       had informed
                            the Garden Grove                     on May 20 that normally
                                            would treat the type of         injury suffered by
                            the employee as an on-the-job injury. Later, the Specialist
                            stated to OIG that          had assumed that the Department
                            of Labor would accept this claim, since many letter carriers
                            sustain similar injuries in the performance of their duties. In
                            July 1998, the employee's injury claim was accepted by the
                            Department of Labor.

                            The District             told us that       had reviewed
                            the employee’s medical documentation in May 1998 and
                            concluded that the medical restrictions were such that the



                                            6
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office                   LR-AR-99-006


                                 employee could be accommodated with light duty work.
                                 According to the postal             , the District
                                                had advised Garden Grove              on
                                 or about May 20 to provide the employee work within
                                 medical restrictions.

Employee Treated                 The OIG review revealed that                    treated the
Differently From                 employee different from the other seven injured employees
Other Injured                    by giving those employees light duty, to include: (1)
Employees                        providing light duty before approval of the on-the-job injury
                                 claims, (2) giving light duty to other employees with off-the-
                                 job injuries, and (3) allowing other employees to cross
                                 crafts, i.e. perform light duty outside their occupational
                                 group.

                                 First,                gave two of the injured employees light
                                 duty before their on-the-job injury claims were approved by
                                 the Department of Labor. One letter carrier stated that
                                        was allowed to case          mail for three to four hours
                                 daily before approval of his injury claim in June 1998.
                                 Another letter carrier told us that        was put on a four-
                                 hour schedule casing mail in the first week following
                                 injury in March 1998 and on an eight-hour schedule in the
                                 second week. We analyzed payroll data for this employee
                                 and found that         was allowed full time light duty work.
                                 This occurred for several pay periods in April, May, and
                                 June, before         injury claim was approved.

                                 Second,                  approved light duty for two other
                                 employees who were injured off the job and made no claims
                                 for compensation. One of these employees broke
                                 ankle in an off-the-job accident and was also allowed to
                                 case mail. The other employee, who was not one of the
                                 seven interviewed, was suffering from severe inflammatory
                                 arthritis and was allowed to case mail.2

                                 Third,                 told the employee claiming retaliation
                                 that        could not cross crafts, i.e. perform clerical duties
                                 instead of        letter carrier duties, but               did
                                 permit other injured employees to cross crafts. One of the
                                 seven employees interviewed was a                      who
                                 stated that        performed light duty in both the carrier and
                                 clerk crafts. Our review of the payroll records confirmed

2
    We obtained this information from the              .



                                                7
                                     Restricted Information
Allegations of Retaliation at the Garden Grove Post Office 	            LR-AR-99-006


                             that this occurred while       was awaiting approval of
                                    Office of Workers’ Compensation Programs claim.
                             We also found that                 used temporary
                             employees for both letter carrier and clerk assignments
                             during May and June, the time that the employee claiming
                             retaliation was denied light duty work.

                             The other three employees interviewed were also given light
                             duty following their injuries, although their circumstances
                             varied from the above three categories.

                             From June 27 through July 13, the employee was allowed to
                             case        mail for no more than four hours per day.
                             However,         was not granted        request for full-time
                             light duty. During this period       continued to request
                             work at other light duty jobs, but      was told none was
                             available. During this time        witnessed five other
                             carriers performing these duties.

Recommendation 1 	           The Vice President, Pacific Area Office, should review the
                             actions of the Garden Grove                 to determine
                             whether corrective and/or disciplinary action is warranted for
                             this inconsistent treatment.

Management                   "We disagree with Recommendation 1 of the report
Response                     concerning the denial of light duty and believe that the
                             finding of retaliation has not been supported."

Evaluation of                We do not agree with management's comments on this
Management                   recommendation. Our finding of retaliation against the
Response                     employee is supported by credible evidence. However, we
                             have agreed to make several changes to the report based
                             on management's comments.

                             First, management noted that a statement in the Executive
                             Summary (page 4 of the draft report) was contradicted by a
                             statement in the section on denial of advance sick leave
                             (pages 9 and 10 of the draft report). The Executive
                             Summary statement asserts that there was retaliation based
                             on management's denial of the employee's requests for light
                             duty and advance sick leave, whereas the section on denial
                             of advance sick leave stated that the evidence on this issue
                             did not support a finding of retaliation. This contradiction is
                             resolved by changing the next to last sentence of the
                             Executive Summary to read: "We were unable to determine



                                             8
                                  Restricted Information
Allegations of Retaliation at the Garden Grove Post Office 	            LR-AR-99-006


                             any credible reasons, other than retaliation, for
                                             denial of the light duty request and the delay
                             of the injury claim."

                             In addition, we have replaced the last paragraph on page 9
                             of the draft report with two revised paragraphs asserting that
                             in isolation the denial of advance sick leave would not
                             support a finding of retaliation because the
                             routinely denied advance sick leave. However, the
                             employee’s advance sick leave request was directly related
                             to the denial of light duty in that     had no option but to
                             exhaust all of         sick leave when                refused
                                    request for light duty. Therefore, the denial of the
                             advance sick leave request, added to the denial of light duty
                             and the unexplained delay in the processing of           injury
                             claim, is additional evidence of a pattern of disparate
                             treatment supporting the allegation of retaliation.

                             Second, we agreed to revise a statement on page 9 of the
                             report, asserting that light duty "became available to the
                             employee as soon as                    Office of Workers
                             Compensation Program claim was approved in July 1998."
                                              comments stated that Garden Grove
                                            provided the employee four hours of light duty
                             from June 27 through July 13, and also stated that the
                             report confused the distinction between "light duty" and
                             "limited duty." The revised statement reflects the fact that
                             the employee was allowed to case            mail for no more
                             than four hours per day but that        was still not granted
                                    request for full-time light duty. During this period
                                    continued to request work at other light duty jobs, but
                                     was told none was available even though
                             witnessed other carriers performing these duties.

Recommendation 2 	           The Vice President, Pacific Area office, and the Vice
                             President, Human Resources, should ensure that Garden
                             Grove                implement procedures to comply with
                             the Employee and Labor Relations Manual, Section 355.14,
                             and
                             the National Association of Letter Carriers national
                             agreement, Article 13, Sections 2.A and 4.A, in approving or
                             denying light duty assignments.
Management                   "We agree that Garden Grove                   should receive
Response                     a review concerning proper implementation of light duty."




                                             9
                                  Restricted Information
Allegations of Retaliation at the Garden Grove Post Office 	            LR-AR-99-006


Evaluation of                This comment is responsive to our recommendation. 

Management

Response 


Recommendation 3 	           The Vice President, Pacific Area office, and the Vice
                             President, Human Resources, should reiterate to all
                             management that retaliation against employees is
                             prohibited.

Management                   "While we do not believe that retaliation was demonstrated
Response                     here, we agree to reiterate through the vice president our
                             policy against retaliation."

Evaluation of                Except for the disagreement with the OIG finding of
Management                   retaliation, which is addressed in Recommendation #1
Response                     above, this comment is responsive to our recommendation.

Denial of Advance            The Employee and Labor Relations Manual, Section 513.5
Sick Leave                   provides that sick leave, not to exceed 30 days (240 hours),
                             can be advanced in cases of serious disability or ailments if
                             there is reason to believe the employee will return to duty. It
                             further states that sick leave may be advanced whether or
                             not employees have annual leave to their credit. Every
                             application, however, must be supported by medical
                             documentation of the illness. Officials in charge of
                             installations are authorized to approve the advances without
                             reference to higher authority.

                             OIG found that the Garden Grove                  had denied
                             two other employees’ requests for advance sick leave at the
                             Temple City Post Office in May 1997 and January 1998.
                             Contrary to USPS policy, this              had         own
                             policy of denying advance sick leave requests. In fact, OIG
                             found that the               wrote on a May 1997 sick leave
                             request from the Temple City Post Office that it was “not my
                             policy to approve advance sick leave.”

                             In isolation, these facts alone would not establish that USPS
                             management treated the employee alleging retaliation
                             differently in the denial of advance sick leave. However, the
                             employee’s advance sick leave request was directly related
                             to the denial of light duty because when management
                             refused          request,       had no option but to exhaust
                             all of       sick leave. Therefore, the denial of the advance
                             sick leave request, added to the denial of light duty and the


                                            10
                                  Restricted Information
Allegations of Retaliation at the Garden Grove Post Office              LR-AR-99-006


                            unexplained delay in the processing of         injury claim, is
                            additional evidence of a pattern of disparate treatment
                            supporting the allegation of retaliation.

                            In August 1998, the employee received a written settlement
                            for reimbursement of all sick leave taken since May 11,
                            1998.

Delay of Office             Injury Compensation Handbook EL-505 states that the
Workers’                    injury compensation form (Office of Workers' Compensation
Compensation                Programs Form CA-2) and supporting documentation must
Programs Claim              be forwarded to the Department of Labor within ten working
                            days after receipt from the employee. Accordingly, the
                            employee’s supervisor must forward the form to the District
                            Injury Compensation Office, which in turn must forward it to
                            the Office of Workers' Compensation Programs office within
                            the ten-day deadline.

                            The Headquarters                  , Safety and Workplace
                            Assistance, in        August 18 memorandum to OIG,
                            acknowledged that there was an “inordinate delay” in the
                            forwarding of the injury claim form of the employee claiming
                            retaliation. This process should only take ten days. It took
                            20 days for the form to reach the Santa Ana District Injury
                            Compensation Office and another 24 days to reach the
                            Department of Labor. Neither the                 nor the
                            USPS investigative report provided a reason for the delay.

                            The OIG review confirmed that the employee submitted
                                  form to      immediate supervisor on April 15, 1998.
                            The form reached the District Injury Compensation Office on
                            May 5 (20-days) and the Office of Workers' Compensation
                            Programs office on May 29 (an additional 24-days).

                            The Garden Grove                    provided inconsistent
                            statements related to the processing of this claim.
                            claimed in a signed statement to the OIG on October 7,
                            1998, that        did not remember the employee’s claim
                            being filed. However, in a July 16, 1998, declaration to the
                            USPS management                     , the              had
                            stated that       ensured that all injury compensation claim
                            forms, including the employee’s, were properly completed
                            and forwarded to the Injury Compensation Office. In
                            addition, the employee’s immediate supervisor stated to
                            OIG that        forwarded the claim form to the



                                           11
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office 	            LR-AR-99-006


                                             in mid-April.

                             Our analysis of five other employees’ compensation claims,
                             filed in the past year, disclosed that supervisors had
                             forwarded          forms to the District Injury Compensation
                             Office within an average of six days, as compared to twenty
                             days for the form filed by the employee alleging retaliation.
                             The                  told us that       did not know why it
                             took so long for the claim to reach the District Injury
                             Compensation Office.

                             The District                told us it took 24 days for
                             office to forward the claim form to the Office of Workers'
                             Compensation Programs office.              needed the
                             additional time to acquire all of the necessary
                             documentation for the Department of Labor.

Recommendation 4 	           The Vice President, Pacific Area office, and the Vice
                             President, Human Resources, should take action to ensure
                             that all Office of Workers' Compensation Programs injury
                             compensation claims are timely processed in accordance
                             with Form CA-2 instructions.

Management                   "We agree with Recommendation 4, that the are should
Comments                     take action to ensure the timely processing of claims."

Evaluation of                This comment is responsive to our recommendation. 

Management

Comments 





                                            12
                                  Restricted Information
Allegations of Retaliation at the Garden Grove Post Office   LR-AR-99-006




Major Contributors to
This Report




                                           13
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office   LR-AR-99-006




                                           14                   Appendix
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office   LR-AR-99-006




                                           15                   Appendix
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office   LR-AR-99-006




                                           16                   Appendix
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office   LR-AR-99-006




                                           17                   Appendix
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office   LR-AR-99-006




                                           18                   Appendix
                                 Restricted Information
Allegations of Retaliation at the Garden Grove Post Office   LR-AR-99-006




                                           19                   Appendix
                                 Restricted Information
